      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




December 17, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Joe Green/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Payments for Ambulatory Surgical Center Services Provided to Beneficiaries in
               Skilled Nursing Facility Stays Covered Under Medicare Part A in Calendar Years
               2006 through 2008 (A-01-09-00521)


The attached final report provides the results of our review of payments for Ambulatory Surgical
Center services provided to beneficiaries in skilled nursing facility stays covered under Medicare
Part A in calendar years 2006 through 2008.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-01-09-00521 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


 PAYMENTS FOR AMBULATORY
 SURGICAL CENTER SERVICES
PROVIDED TO BENEFICIARIES IN
 SKILLED NURSING FACILITY
   STAYS COVERED UNDER
MEDICARE PART A IN CALENDAR
 YEARS 2006 THROUGH 2008




                      Daniel R. Levinson
                       Inspector General

                        December 2010
                        A-01-09-00521
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Section 1888(e) of the Social Security Act (the Act) established a prospective payment system
for skilled nursing facilities (SNF). Under the prospective payment system, Medicare pays SNFs
for all covered SNF services. Pursuant to the Act’s consolidated billing requirements, SNFs are
responsible for billing Medicare for virtually all services furnished to SNF residents during a
Part A covered stay, regardless of whether SNFs furnish the services directly or under
arrangements with outside suppliers. For services furnished under arrangements with outside
suppliers, the suppliers are responsible for billing the SNFs (rather than Medicare Part B).
Therefore, Medicare Part B payments that suppliers receive for these services are overpayments.

Ambulatory surgical center (ASC) facility services, such as nursing, recovery care, anesthetics,
drugs, and other supplies, provided to SNF residents are subject to consolidated billing and must
be billed to the SNF rather than Medicare Part B. Physicians’ professional services are
statutorily excluded from consolidated billing and may be billed to Medicare Part B.

Our nationwide audit covered 20,906 Medicare Part B ASC facility services valued at
$7,113,542 with dates of service in calendar years (CY) 2006 through 2008 that matched 14,192
Part A SNF stays and that thus represented potential overpayments. We sampled 100 services
provided by 88 ASCs.

OBJECTIVE

Our objective was to determine whether ASCs complied with consolidated billing requirements
in CYs 2006 through 2008.

SUMMARY OF FINDINGS

ASCs did not comply with consolidated billing requirements in CYs 2006 through 2008. All 100
services that we reviewed, totaling $102,879, were incorrectly billed to Medicare Part B even
though they were included in the SNFs’ Part A payments. As a result, Medicare paid twice for
these services: once to the SNF under the Part A prospective payment system and again to the
ASC under Part B.

Based on our sample results, we estimated that Medicare contractors made at least $6.6 million
in overpayments to ASCs for services provided to beneficiaries in Part A SNF stays in CYs 2006
through 2008. These overpayments occurred because ASCs did not have the necessary controls
to prevent incorrect billing to Medicare Part B. In addition, the payment controls in the Centers
for Medicare & Medicaid Services’ (CMS) Common Working File were not designed to prevent
and detect Part B overpayments to ASCs for services subject to consolidated billing.




                                                i
RECOMMENDATIONS

We recommend that CMS:

   •   instruct its Medicare contractors to:

           o recover the $102,879 in overpayments for the 100 incorrectly billed services that
             we identified,

           o review the 20,806 services that we did not review and recover overpayments
             estimated to total at least $6.5 million, and

           o provide guidance to ASCs on consolidated billing requirements and the need for
             timely and accurate communication between ASCs and SNFs regarding
             beneficiaries’ Medicare Part A status and

   •   establish an edit in the Common Working File to prevent Part B payments for ASC
       services that are subject to consolidated billing.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
corrective actions that it was taking or planned to take. CMS requested that we provide the data
necessary to recover overpayments for the sampled and nonsampled services. With respect to
the nonsampled services, CMS stated that it would share this report and the additional claims
with the recovery audit contractors. CMS’s comments are included in their entirety as
Appendix E.

We will provide CMS with the requested data.




                                                ii
TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .................................................................................................... 1
              Skilled Nursing Facility Prospective Payment System and
                  Consolidated Billing Requirements ...................................................... 1
              Ambulatory Surgical Centers ...................................................................... 1
              Medicare Contractors .................................................................................. 1
              Prior Office of Inspector General Reports .................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 2
               Objective ..................................................................................................... 2
               Scope ........................................................................................................... 2
               Methodology ............................................................................................... 2

FINDINGS AND RECOMMENDATIONS ................................................................... 3

          PROGRAM REQUIREMENTS ............................................................................. 3

          INCORRECT PART B BILLING .......................................................................... 4

          CAUSES OF OVERPAYMENTS .......................................................................... 4

          RECOMMENDATIONS ........................................................................................ 5

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ........... 5

APPENDIXES

          A: PRIOR OFFICE OF INSPECTOR GENERAL REPORTS

          B: COMPUTER MATCH METHODOLOGY TO IDENTIFY OVERPAYMENTS

          C: SAMPLING DESIGN AND METHODOLOGY

          D: SAMPLE RESULTS AND ESTIMATES

          E: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Skilled Nursing Facility Prospective Payment System and
Consolidated Billing Requirements

Section 1888(e) of the Social Security Act (the Act) established a prospective payment system
for skilled nursing facilities (SNF) for cost-reporting periods beginning on or after July 1, 1998.
Under the prospective payment system, Medicare pays SNFs through per diem, prospective,
case-mix-adjusted payment rates for all SNF covered services. Under the consolidated billing
provisions of sections 1862(a)(18) and 1842(b)(6)(E) of the Act, SNFs are responsible for billing
Medicare for all services furnished to a SNF resident during a Part A covered stay, except for
specifically excluded services, regardless of whether SNFs furnish the services directly or under
arrangements with outside suppliers. For services furnished under arrangements with outside
suppliers, the suppliers are responsible for billing the SNFs (rather than Medicare Part B).

Ambulatory Surgical Centers

An ambulatory surgical center (ASC) is a facility, other than a physician’s office, where surgical
and diagnostic services are provided on an outpatient basis. The procedures most commonly
performed in ASCs are colonoscopies, cataract removal, and other eye procedures.

Medicare Part B makes prospective payments to ASCs for facility services, such as nursing,
recovery care, anesthetics, drugs, and other supplies. However, for services furnished to SNF
residents, ASCs must bill according to the consolidated billing provisions and be paid by the
SNF rather than Medicare Part B. Accordingly, when an ASC erroneously bills Part B for
services included in the SNF’s Part A payment, Medicare pays for these services twice: once to
the SNF and again to the ASC.

Physicians’ professional services are statutorily excluded from consolidated billing.

Medicare Contractors

The Centers for Medicare & Medicaid Services (CMS) contracts with Medicare contractors to
process and pay Medicare Part B claims. 1 Medicare contractors use the Medicare Multi-Carrier
System and CMS’s Common Working File to process Part B claims. These systems can prevent
or detect certain improper payments.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.

                                                         1
Prior Office of Inspector General Reports

Prior Office of Inspector General audits, which are listed in Appendix A, identified a total of
$444 million in Medicare Part B overpayments to suppliers on behalf of beneficiaries during
Part A SNF stays. These audits covered various periods from calendar year (CY) 1998 through
CY 2006.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether ASCs complied with consolidated billing requirements
in CYs 2006 through 2008.

Scope

Our nationwide audit covered 20,906 Medicare Part B ASC facility services valued at
$7,113,542 with dates of service in CYs 2006 through 2008 that coincided with dates of service
for 14,192 Part A SNF stays and that thus represented potential overpayments.

We limited our internal control review at CMS and selected Medicare contractors to the payment
controls in place to prevent and detect Part B overpayments to ASCs for services included in
Medicare Part A payments to SNFs. We limited our internal control review at ASCs to those
controls related to developing and submitting Medicare claims for services provided to
beneficiaries during Part A SNF stays.

Our fieldwork consisted of contacting 88 ASCs and 93 SNFs nationwide from February through
May 2010. We also contacted three Medicare contractors.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used data from CMS’s National Claims History file to perform a nationwide computer
        match of ASC services and SNF claims to identify ASC services with Medicare
        overpayments for CYs 2006 through 2008 (Appendix B);

   •    selected a stratified random sample of 100 services from the 20,906 ASC services
        identified by our computer match (Appendix C) and, for the sampled services:

            o reviewed available data from CMS’s Common Working File and the
              corresponding SNF claims to validate the results of our computer match,




                                               2
           o contacted representatives from the 88 ASCs that submitted claims for the sampled
             services to confirm the overpayments and to determine the underlying causes of
             noncompliance with Medicare requirements, and

           o contacted the 93 SNFs associated with the ASC services to verify admission and
             discharge dates;

   •   contacted CMS and 3 Medicare contractors to obtain an understanding of the
       consolidated billing edits in the Common Working File;

   •   estimated the overpayments that Medicare contractors made to ASCs nationwide for
       services provided in CYs 2006 through 2008 (Appendix D); and

   •   discussed the results of our review with CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

ASCs did not comply with consolidated billing requirements in CYs 2006 through 2008. All 100
services that we reviewed, totaling $102,879, were incorrectly billed to Medicare Part B even
though they were included in the SNFs’ Part A payments. As a result, Medicare paid twice for
these services: once to the SNF under the Part A prospective payment system and again to the
ASC under Part B.

Based on our sample results, we estimated that Medicare contractors made at least $6.6 million
in overpayments to ASCs for services provided to beneficiaries in Part A SNF stays in CYs 2006
through 2008. These overpayments occurred because ASCs did not have the necessary controls
to prevent incorrect billing to Medicare Part B. In addition, the payment controls in CMS’s
Common Working File were not designed to prevent and detect Part B overpayments to ASCs
for services subject to consolidated billing.

PROGRAM REQUIREMENTS

Pursuant to sections 1862(a)(18) and 1842(b)(6)(E) of the Act, SNFs are responsible for billing
Medicare for most services, including ASC services, provided to a SNF resident during a Part A
stay. The interim final rule implementing the SNF consolidated billing requirement (63 Fed.
Reg. 26252, 26300 (May 12, 1998)) states that “[w]hen the SNF furnishes services under an
arrangement with an outside supplier, the outside supplier must look to the SNF instead of to
Medicare Part B for payment ....” Accordingly, when an outside supplier erroneously bills
Part B for services included in the SNF’s Part A payment, Medicare pays for the services twice:
once to the SNF and again to the outside supplier (63 Fed. Reg. 26252, 26295 (May 12, 1998)).

                                               3
Physicians’ professional services are statutorily excluded from consolidated billing pursuant to
sections 1842(b)(6)(E) and 1888(e)(2)(A)(ii) of the Act.

INCORRECT PART B BILLING

ASCs incorrectly billed Medicare Part B for all 100 services that we reviewed. These services
were provided to SNF residents during Part A stays and were thus subject to consolidated billing.
The incorrect billing resulted in overpayments totaling $102,879.


                          Example: Overpayment Billed by an ASC

 A beneficiary was admitted to a SNF on August 12, 2008, as a resident covered under
 Medicare Part A. The beneficiary arrived at the SNF with a physician’s order for a
 cystoscopy, which was performed on August 22, 2008, at an ASC. The physician who
 performed the cystoscopy correctly billed Medicare Part B for professional services and
 received a payment of $105. The ASC incorrectly billed Medicare Part B, rather than the
 SNF, for its facility services and was paid $260.

 The beneficiary was discharged from the SNF on September 6, 2008, and the SNF was paid
 $7,947 for the beneficiary’s Part A stay. Because the services that the ASC furnished to the
 beneficiary were included in the SNF’s Medicare Part A payment, Medicare incorrectly paid
 the ASC $260 for its facility services.


Based on the results of our sample, we estimated that Medicare contractors nationwide made at
least $6.6 million in overpayments to ASCs for services subject to consolidated billing.

CAUSES OF OVERPAYMENTS

ASCs were either unaware of or did not fully understand consolidated billing requirements. In
some instances, ASC officials stated that they were unaware that the exclusion of certain
intensive hospital outpatient procedures from consolidated billing requirements, as provided in
42 CFR § 411.15(p)(3)(iii), does not apply if the services are performed in ASCs. Additionally,
most ASCs did not ask beneficiaries during the check-in process whether they were currently
Part A SNF residents.

Medicare contractors made overpayments to ASCs for services subject to consolidated billing
because the edits in CMS’s Common Working File were not designed to prevent and detect these
overpayments.




                                                4
RECOMMENDATIONS

We recommend that CMS:

   •   instruct its Medicare contractors to:

           o recover the $102,879 in overpayments for the 100 incorrectly billed services that
             we identified,

           o review the 20,806 services that we did not review and recover overpayments
             estimated to total at least $6.5 million, and

           o provide guidance to ASCs on consolidated billing requirements and the need for
             timely and accurate communication between ASCs and SNFs regarding
             beneficiaries’ Medicare Part A status and

   •   establish an edit in the Common Working File to prevent Part B payments for ASC
       services that are subject to consolidated billing.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
corrective actions that it was taking or planned to take. CMS requested that we provide the data
necessary to recover overpayments for the sampled and nonsampled services. With respect to
the nonsampled services, CMS stated that it would share this report and the additional claims
with the recovery audit contractors. CMS’s comments are included in their entirety as
Appendix E.

We will provide CMS with the requested data.




                                                5
APPENDIXES
              APPENDIX A: PRIOR OFFICE OF INSPECTOR GENERAL REPORTS

                                                                  Period               Total
             Report Title and Number 1                           Covered           Overpayments             Issue Date
                                                                by Review            Identified

Review of Compliance With the Consolidated Billing            Oct. 1, 1998,
Provision Under the Prospective Payment System for              through                   $0              Mar. 27, 2000
Skilled Nursing Facilities (A-01-99-00531)                    April 30, 1999

Review of Potential Improper Payments Made by
Medicare Part B for Services Covered Under the                Calendar year         $47.6 million 2        June 5, 2001
Part A Skilled Nursing Facility Prospective Payment            (CY) 1999
System (A-01-00-00538)

Medicare Part B Payments for Durable Medical
Equipment Provided to Beneficiaries in Skilled Nursing           CYs 1996            $35 million           July 23, 2001
Facilities (A-01-00-00509)                                     through 1998

Medicare Part B Payments for Durable Medical
Equipment Provided to Beneficiaries in Skilled Nursing
Facilities for Time Periods Between the Full Month               CYs 1996           $10.5 million          Oct. 17, 2001
Periods Covered by Our Prior Report and the Date of            through 1998
Discharge From the Skilled Nursing Facility
(A-01-01-00513)

Review of Improper Payments Made by Medicare
Part B for Services Covered Under the Part A Skilled             CYs 1999          $108.3 million          May 28, 2004
Nursing Facility Prospective Payment System in                 through 2000
Calendar Years 1999 and 2000 (A-01-02-00513)

Payments for Durable Medical Equipment, Prosthetics,
Orthotics, and Supplies Made on Behalf of                        CYs 1999           $112 million           June 26, 2007
Beneficiaries in Skilled Nursing Facility Stays Covered        through 2003
Under Medicare Part A (A-01-05-00511)

Payments for Outpatient Hospital, Laboratory, and
Radiology Services Made on Behalf of Beneficiaries in            CYs 2001          $124.8 million          Jan. 30, 2008
Skilled Nursing Facility Stays Covered Under Medicare          through 2003
Part A (A-01-06-00503)

Review of Payments for Ambulance Transportation
Provided to Beneficiaries in Skilled Nursing Stays
Covered Under Medicare Part A in Calendar Year                   CY 2006            $12.7 million         Aug. 25, 2009
2006 (A-01-08-00505)

    1
     With the exception of report number A-01-01-00513, which was issued as an addendum to report number
    A-01-00-00509, these reports are available at http://oig.hhs.gov.
    2
     As noted in report number A-01-02-00513, we reduced the $47.6 million to $40.7 million to account for
    overpayments refunded by suppliers after this review, as well as refinements in our matching methodology.
               APPENDIX B: COMPUTER MATCH METHODOLOGY TO
                           IDENTIFY OVERPAYMENTS

COMPILING DATA TO IDENTIFY OVERPAYMENTS

Skilled Nursing Facility Data

For skilled nursing facility (SNF) claims, we:

   •   extracted claim information from the National Claims History file for CYs 2006 through
       2008;

   •   limited the population to claims with revenue center code 0022, denoting a prospective
       payment; and

   •   sorted claims by beneficiary and admission date and grouped the sorted claims together
       to identify SNF stays.

Ambulatory Surgical Center Services

For ambulatory surgical center (ASC) services, we:

   •   extracted paid claim information from the National Claims History file for CYs 2006
       through 2008,

   •   eliminated services provided on the date of admission or discharge from the SNF,

   •   limited the population of services to those denoted by type of service code F (ASC
       Facility Usage for Surgical Services), and

   •   matched the paid claim information to the grouped SNF stays based on beneficiaries’
       health insurance claim numbers from the SNF claim data.

IDENTIFYING OVERPAYMENTS

To identify overpayments, we eliminated the following:

   •   services that had a $0 Medicare payment, $0 coinsurance payment, and $0 deductible and

   •   services provided during the noncovered portion of the SNF stay.
                                                                                      Page 1 of 2


                   APPENDIX C: SAMPLING DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part B services furnished in ASCs nationwide on behalf of
beneficiaries in Part A SNF stays during CYs 2006 through 2008.

SAMPLING FRAME

The sampling frame was a database of 20,906 ASC facility services totaling $7,113,542 provided
to beneficiaries in Part A SNF stays during CYs 2006 through 2008. We stratified the frame into
three strata based on Medicare paid amounts.

                                                                Number
                                                                   of
        Stratum                 Medicare Paid Amount            Services   Dollar Amount 1
            1                    Payments of $0 to $300         10,692       $2,014,740

            2            Payments greater than $300 to $1,400   10,189        5,021,627
            3                 Payments greater than $1,400          25           77,174
          Total                                                 20,906       $7,113,542

SAMPLE UNIT

The sample unit was an ASC facility service furnished on behalf of a beneficiary in a Part A SNF
stay.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

The sample consisted of 100 services: 38 services from stratum 1, 37 services from stratum 2,
and all 25 services in stratum 3.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, random number generator to
generate the random numbers.




1
    Does not add to total because of rounding.
                                                                                       Page 2 of 2


METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame from 1 to 10,692 for stratum 1 and
from 1 to 10,189 for stratum 2. After generating 38 random numbers for stratum 1 and 37 for
stratum 2, we selected the corresponding frame items. For stratum 3, we selected all services.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the overpayments.
          APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                   Sample Results

          Frame        Sample            Value of    Number of     Value of
Stratum    Size         Size             Sample     Overpayments Overpayments

   1       10,692             38          $7,328          38           $7,328


   2       10,189         37              18,377          37           18,377


   3          25          25              77,174          25           77,174

Total      20,906        100            $102,879         100         $102,879



                    Estimated Value of Overpayments
          (Limits Calculated for a 90-Percent Confidence Interval)

             Lower limit                            $6,637,934
             Upper limit                             7,761,159
             Point estimate                          7,199,546
 APPENDIX E: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                                        Page 1 of 3

                                                                           Centers for Medicare & Medicaid Services


                                                                           Administrator
                                                                           Washington, DC 20201




DATE: 	       NOV 1 R2010
TO: 	         Daniel R. Levinson
              Inspector General

FROM:         Donald M.
              Admmlstrator
                          BerwiCS;D3>         (\ \ Ih~ ~ ~ ..vv-
                            -=c:::=~===:::::::-r~ ~     f                - " ....
                                                                                    AlI

SUBJECT: 	 Office of Inspector General's Draft Report: "Payments for Ambulatory Surgical
           Center Services Provided to Beneficiaries in Skilled Nursing Facility Stays
           Covered under Medicare Part A in Calendar Years 2006 through 2008"
           (A-OI-09-00S21 )


The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review the
Office ofInspector General's (OIG) draft report entitled "Payments for Ambulatory Surgical
Center Services Provided to Beneficiaries in Skilled Nursing Facility Stays Covered Under
Medicare Part A in Calendar Years 2006 through 2008."

The objective of the review was to determine whether Ambulatory Surgical Centers (ASCs)
complied with skilled nursing facility (SNF) consolidated billing requirements in calendar years
(CYs) 2006 through 2008.

The OIG found that from 2006 to 2008, ASCs did not comply with consolidated billing
requirements. All 100 services that were reviewed, totaling $102,879, were incorrectly billed to
Medicare Part B even though they were included in the SNF's Part A payments. As a result,
Medicare paid twice for these services: once to the SNF under the SNF prospective payment
system and again to the ASC under Part B. Based on the sample results, OIG estimated that
Medicare contractors made at least $6.6 million in overpayments to ASCs for services provided
to beneficiaries in Part A SNF stays in CYs 2006 through 2008. According to the OIG, these
overpayments occurred because ASCs did not have the necessary controls to prevent incorrect
billing to Medicare Part B. In addition, the OIG determined that the payment controls in CMS's
Common Working File (CWF) were not designed to prevent and detect Part B overpayments to
ASCs for services subject to consolidated billing.

OIG Recommendation

OIG recommends that CMS instruct its Medicare contractors to recover the $102,879 in
overpayments for the 100 incorrectly billed services that were identified.
                                                                                      Page 2 of 3




Page 2 - Daniel R. Levinson

eMS Response

The CMS concurs that the $102,879 in overpayments should be recovered. The CMS plans to
recover the overpayments identified consistent with the agency's policies and procedures.

We ask that the DIG furnish for each overpayment or potential overpayment the data necessary
(Medicare contractor numbers, provider numbers, claims information including the paid date,
HIC numbers, etc.) to initiate and complete recovery action. In addition, Medicare contractor
specific data should be written to separate cd-roms or separate hardcopy worksheets in order to
better facilitate the transfer of information to the appropriate contractors.

OIG Recommendation

CMS should review the 20,806 services that DIG did not review and recover overpayments
estimated to total at least $6.5 million.

eMS Response

The CMS concurs. The CMS will take appropriate action to forward the listing of questionable
claims to the Recovery Audit Contractors (RACs) and Medicare Administrative Contractors
(MACs). The RACs review Medicare claims on a post payment basis and are tasked with
identifying inappropriate payments. While CMS does not mandate areas for RAC review, we
will share this information with them. We will instruct the MACs to consider this issue when
prioritizing their medical review strategies or other interventions.

OIG Recommendation

CMS should provide guidance to ASCs on consolidated billing requirements and the need for
timely and accurate communication between ASCs and SNFs regarding beneficiaries' Medicare
Part A status.

 eMS Response

 The CMS concurs. On February 5, 2010, CMS issued change request (CR) 6702,
 "Implementation of a New Skilled Nursing Facility Consolidated Billing Edit Billed by
 Ambulatory Surgical Centers." Along with this CR, we developed a Medicare Learning
 Network Matters article, MM6702, to correspond to the CR. The article is posted on the CMS
 Web site and a link to it is also on the Medicare contractors' Web sites. The article serves as
 guidance to the ASCs regarding beneficiaries in a Part A SNF stay receiving services in an ASC.
                                                                                     Page 3 of 3



Page 3 - Daniel R. Levinson

OIG Recommendation

OIG recommends that eMS instruct its Medicare contractors to establish an edit in the CWF to
prevent Part B payments for ASC services that are subject to consolidated billing.

eMS Response

The CMS concurs. As noted above, CMS issued CR 6702, "Implementation of a New Skilled
Nursing Facility Consolidated Billing Edit Billed by Ambulatory Surgical Centers." This CR
implements a new edit in the CWF to prevent separate payment for facility costs billed by ASCs
for Medicare beneficiaries in Part A SNF stays. The edit was effective for claims with dates of
service on or after January 1,2008 that are processed on or after July 6, 2010.

The CMS commends the OIG for their analysis of ASC and SNF claims data and for providing
us with the opportunity to comment on their findings. We look forward to the OIG follow-up
studies to this report and look forward to working with you closely to ensure accurate ASC and
SNF payments under Medicare.
